No. 20-843
IN THE

Supreme Court of the United States
NEW YORK STATE RIFLE & PISTOL ASSOCIATION, INC.,
et al.,
Petitioners,
v.
KEVIN P. BRUEN, In His Official Capacity As
Superintendent Of New York State Police, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE

I hereby certify that I am a member in good standing of the bar of this Court and
that the Brief of Members of the Business Community as Amici Curiae in Support
of Respondents contains 7,065 words and complies with the word limitation
established by Rule 33.1(g)(xiv) of the Rules of this Court.
Dated: September 21, 2021

/s/ Scott A. Edelman
Scott A. Edelman

